            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
        GOVERNMENT OF THE
       DISTRICT OF COLUMBIA
     FOR THE FISCAL YEAR ENDED
         SEPTEMBER 30, 2005

     February 2007   A-77-07-00008




  MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                       SOCIAL SECURITY
MEMORANDUM

Date:      February 27, 2007                                                   Refer To:

To:        Candace Skurnik
           Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the Government of the District of
           Columbia for the Fiscal Year Ended September 30, 2005 (A-77-07-00008)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the Government of the District of Columbia for the Fiscal Year ended
           September 30, 2005. Our objective was to report internal control weaknesses,
           noncompliance issues, and unallowable costs identified in the single audit to SSA for
           resolution action.

           BDO Seidman, LLP performed the audit. The Department of Health and Human
           Services (HHS) desk review concluded that the audit met Federal requirements. In
           reporting the results of the single audit, we relied entirely on the internal control and
           compliance work performed by BDO Seidman, LLP and the reviews performed by HHS.
           We conducted our review in accordance with the Quality Standards for Inspections
           issued by the President’s Council on Integrity and Efficiency.

           For single audit purposes, the Office of Management and Budget (OMB) assigns
           Federal programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s
           Disability Insurance (DI) and Supplemental Security Income (SSI) programs are
           identified by CFDA number 96. SSA is responsible for resolving single audit findings
           reported under this CFDA number.

           The District of Columbia’s Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal
           regulations. The DDS is reimbursed for 100 percent of allowable costs. The
           Department of Human Services (DHS) is the District of Columbia DDS’ parent agency.
Page 2 – Candace Skurnik

The single audit reported that two State Agency Reports of Obligations (SSA-4513) and
one Time Report of Personnel Services (SSA-4514) were not submitted to SSA timely.
The corrective action plan indicated that DHS would implement a new process to
ensure reports are submitted to SSA timely (see Attachment A).

We recommend SSA verify that DHS’ new process has resulted in the timely
submission of the SSA-4513 and SSA-4514.

The single audit also disclosed the following findings that may impact DDS operations
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency.

•   Documentation to support procurement transactions could not be located and data
    input errors were noted on award types and amounts (Attachment B, pages 1
    through 4).

•   Payment for property items or services were not made timely as required by the
    Quick Payment Act of 1984 (Attachment B, pages 5 and 6).

•   Documentation for payroll costs was not maintained as required by OMB
    Circular A-87 Cost Principles for State, Local and Indian Tribal Governments
    (Attachment B, pages 7 and 8).

Please send copies of the final Audit Clearance Document to Shannon Agee and
Rona Lawson. If you have any questions contact Shannon Agee at (816) 936-5590.




                                                 Patrick P. O’Carroll, Jr.

Attachments
Attachment A
Attachment B
  Page 1 of 8
Attachment B
  Page 2 of 8
Attachment B
  Page 3 of 8
Attachment B
  Page 4 of 8
Attachment B
  Page 5 of 8
Attachment B
  Page 6 of 8
Attachment B
  Page 7 of 8
Attachment B
  Page 8 of 8
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
